DOE/IG-0495




         AUDIT
        REPORT


                                  THE NEED FOR THE ATLAS
                                PULSED POWER EXPERIMENTAL
                                         FACILITY




                                            FEBRUARY 2001




   U.S. DEPARTMENT OF ENERGY
  OFFICE OF INSPECTOR GENERAL
    OFFICE OF AUDIT SERVICES
                                              February 12, 2001


MEMORANDUM FOR THE SECRETARY

FROM:                    Gregory H. Friedman (Signed)
                         Inspector General

SUBJECT:                 INFORMATION: Audit Report on "The Need for the Atlas
                         Pulsed Power Experimental Facility"


BACKGROUND

In 1993, the Department of Energy proposed developing the Atlas Pulsed Power Experimental Facility
(Atlas) as part of its effort to assure the reliability of the U.S. nuclear stockpile after the moratorium on
below-ground nuclear weapons testing.
The $49 million facility was intended to produce more than 30 million amperes of electric current for
weapon-physics experiments to allow validation of certain elements of nuclear weapons computer codes.
Once authorized, Atlas was assembled within budget and on time. The assembled facility is currently
undergoing acceptance testing and in December, 2000, Atlas discharged 28.7 million amperes of current,
duplicating the world record for current produced by a capacitor bank with only 75 percent of the facility's
design voltage used. According to the Director of Physics at the Los Alamos National Laboratory, given
the success of its operation to date, the Atlas facility was expected to become a valuable tool for stockpile
stewardship experimentation.

The objective of the audit was to evaluate issues that have been raised relating to the need for Atlas.

RESULTS OF AUDIT

After an extensive review process, the Office of Defense Programs (Defense Programs) validated the need
for Atlas. In June 1998, construction of the $49 million facility was authorized. However, two years later,
the Department, in internal communications to Los Alamos, stated that it did not have funds to operate the
facility. Nonetheless, it decided to complete construction of Atlas and, due to the lack of operating funds,
place the completed facility in cold standby. More recently, as directed by Congress in applicable
appropriations law, Defense Programs, now a component of the National Nuclear Security Administration,
made plans to move the facility to the Nevada Test Site at a cost of $12 million. We were informed that the
Department plans to seek a FY 2002 appropriation for Atlas operating funds, however, at the time this
report was issued there had been no resolution of the operating fund situation.


The Department initially contended that without Atlas it may be difficult to validate certain elements of
nuclear weapons computer codes used to certify the safety, security and reliability of the weapons stockpile.
The current status of operating funds for Atlas, however, suggests that the facility's importance to the
stockpile stewardship program may not be as great as originally asserted. In the absence of an assured
funding stream to operate Atlas, any decision to move the facility to Nevada raises concern. Consistent
with our recommendations, the Department should work with the Congress to address this uncertainty in
stockpile stewardship priorities.
                                                     -2-

During the course of our review, it became apparent that the Department may have faced resource
constraints forcing it to make difficult choices in deciding which programs to fund. Yet, despite discussions
with responsible officials at all levels and a comprehensive document search, we could not obtain a clear
understanding of why operating funds for Atlas were not currently available. Thus, we concluded that the
prioritization process in Defense Programs needs to be strengthened.

MANAGEMENT REACTION

Although management agreed with two of the three audit recommendations, there was significant
disagreement with key aspects of the report. For example, management stated that the report presumed to
pass judgement on the technical need of the project without the benefit of unbiased expertise on the subject
of weapons research and design. Management also took exception to our conclusions regarding the
prioritization process in Defense Programs and the potential impact of not operating Atlas. Management's
comments are synopsized on page 5 of the report and our response is found on page 6 of the report.

Attachment

cc: Under Secretary for Nuclear Security/Administrator for Nuclear Security
THE NEED FOR THE ATLAS PULSED POWER EXPERIMENTAL FACILITY

TABLE OF
CONTENTS




                  Overview

                  Introduction and Objective ............................................... 1


                  Conclusions and Observations ........................................ 1


                  The Need For Atlas


                  Details of Finding ............................................................ 3


                  Recommendations and Comments ................................. 5


                  Appendices


                  Scope and Methodology.................................................. 7


                  Past Audits Relating to Design and Construction
                  of Projects ....................................................................... 8


                  Photograph of Atlas ......................................................... 9
Overview
INTRODUCTION      The United States policy governing nuclear weapons has undergone a
AND OBJECTIVE     profound change since the end of the Cold War. In the past, confidence
                  in the stockpile was ensured through research and development at the
                  national laboratories and testing at the Nevada Test Site (NTS). In
                  1992, the United States announced a halt in the production of new
                  weapons designs and a moratorium on underground nuclear testing. In
                  1993, the President of the United States continued the moratorium on
                  testing and initiated the Stockpile Stewardship Program. Thus, the
                  Department of Energy (Department) and its Office of Defense
                  Programs (Defense Programs) were challenged to explore other means
                  of maintaining confidence in the safety and reliability of nuclear
                  weapons. Since November 1993, Defense Programs has been required
                  to certify annually that its stockpile is safe and reliable without nuclear
                  testing. The Atlas Pulsed Power Experimental Facility (Atlas) was
                  proposed in 1993 as part of the Stockpile Stewardship Program's
                  response to the restrictions on nuclear weapons testing.

                  Atlas is a pulsed power facility designed to validate certain elements of
                  nuclear weapons computer codes; thus, Atlas helps to ensure that the
                  simulations run on super computers are accurate. Assembly of Atlas
                  was completed in August 2000. The facility is currently undergoing
                  acceptance tests leading to formal construction project completion, at a
                  total project cost of about $49 million. The physical assembly was
                  completed on time and within budget. On December 15, 2000, the
                  machine successfully discharged 28.7 million amperes of current into a
                  test load, duplicating the world record for current produced by a
                  capacitor bank with only 75 percent of the facility's design voltage
                  used. According to the Los Alamos National Laboratory (Los Alamos)
                  Physics Director, the Atlas facility is expected to quickly become a
                  valuable tool for stockpile stewardship experimentation.

                  The objective of the audit was to determine if there is a need for Atlas.

CONCLUSIONS AND   Defense Programs determined that Atlas was needed to support its
OBSERVATIONS      Stockpile Stewardship Program and in June 1998, authorized
                  construction of the $49 million Atlas facility. Two years later,
                  however, Defense Programs stated it did not have funds to operate the
                  facility. Defense Programs then decided to complete construction of
                  Atlas and place the completed facility in cold standby.

                  Defense Programs is now testing and performing initial experiments on
                  Atlas at Los Alamos. Although Defense Programs had estimated the
                  cost to operate Atlas when construction was authorized in 1998, it had
                  not assigned the facility a priority high enough to fund it operations.


Page 1                                                 Introduction and Objective/
                                                       Conclusions and Observations
         Without operating funds, the Department will not be able to reap the
         benefits of the technology that this facility provides -- validation of
         certain elements of nuclear weapons computer codes used to certify the
         safety, security, and reliability of the weapons stockpile. In response to
         more recent events, Defense Programs plans to spend an additional
         $12 million to move and reassemble Atlas at the NTS.

         This audit identified issues that management should consider when
         preparing its yearend assurance memorandum on internal controls.




                                       ______(Signed)_________
                                       Office of Inspector General




Page 2                                        Conclusions and Observations
The Need for Atlas
Need for Atlas         On August 5, 1993, Defense Programs determined that Atlas was
                       needed to support its Stockpile Stewardship Program and approved a
                       mission need statement to support the $49 million facility. Over the
                       next few years, Department-sponsored studies asserted the need for the
                       facility. In the September 1994 mission-need approval memorandum,
                       for example, two senior Defense Programs officials reported that Atlas
                       was an important part of the Stockpile Stewardship Program. The need
                       for Atlas was also referred to in the Record of Decision (ROD)
                       Programmatic Environmental Impact Statement for the Stockpile
                       Stewardship Program signed by the Secretary of Energy on
                       December 19, 1996. The ROD stated that Atlas offered improved
                       experimental capabilities and that the Department had decided to
                       construct and operate it at Los Alamos. Further, Defense Programs
                       verified the need for Atlas through annual line item project validations.

                       In June 1998, construction of Atlas was authorized. Seven months
                       later, an independent assessment found that Atlas was a cost-effective
                       way to obtain new and useful information to certify the safety and
                       reliability of nuclear weapons. Later, in November 1999, the Stockpile
                       Stewardship Plan identified Atlas as a needed experimental facility for
                       testing. In spite of these positive assertions, Defense Programs stated
                       it could not afford to operate Atlas and, therefore, suggested its
                       termination in February 2000. Officials at Los Alamos responded that
                       Atlas was about 90 percent complete and was needed because the same
                       tests could not be performed elsewhere. Defense Programs
                       subsequently decided to complete construction, perform operational
                       testing, and place Atlas in cold standby at Los Alamos.

                       In July 2000, Congress authorized some of the funding needed to move
                       Atlas to the NTS. The Deputy Administrator for Defense Programs
                       then requested in a memorandum that "the Albuquerque Operations
                       Office, with assistance from the Nevada Operations Office, prepare a
                       plan, schedule and cost estimate to effect the transfer." Further the
                       memorandum stated that "the move should be to a storage location in
                       Nevada," and "Defense Programs does not currently have funds or
                       plans to reassemble and operate Atlas in Nevada." In January 2001,
                       Defense Programs provided documentation that showed that it initiated
                       action to request funds to operate Atlas after it is moved. However, the
                       Department has not, to date, approved the request.

Project Requirements   Managers are required to adhere to the Department's life-cycle asset
                       management procedures for a line item project. Specifically,
                       Department Order 430.1A, Life Cycle Asset Management, and
                       Department Guide GPG-FM-002, Critical Decision Criteria, require
                       that critical decision determinations be made on all projects. One of

Page 3                                                                    Details of Finding
                      these is the decision to begin construction. At this point, management
                      is to determine the projects' life cycle costs, which includes
                      maintenance, training, and operating costs. Once operating costs are
                      determined, the Department is to use this information to prepare its
                      budget request to Congress.
Project Management    Defense Programs has not effectively managed the Atlas project
                      because program officials did not assign the facility a priority high
                      enough to fund its operations. On June 1, 1998, construction was
                      authorized and operating costs for the life of the project were estimated.
                      However, as construction neared completion, Defense Programs
                      determined that it could not provide the funding needed to operate the
                      facility. In fact, Atlas was 90 percent complete before Defense
                      Programs realized the seriousness of the problem. Thus, funding was
                      not included in the Department's budgetary request.

                      A contributing factor was that the Stockpile Stewardship Program was
                      underfunded by about $750 million a year from 1996-1999. As
                      construction neared completion, program officials recognized that they
                      did not have the funds to operate Atlas. However, construction was not
                      halted. One Defense Programs official said that, in the past, adequate
                      funds were available to ensure that projects could be operated. Others
                      believed that the funding deficit would eventually be corrected. They
                      hoped that if the construction were completed, Defense Programs
                      would eventually have the funding needed to operate the facility.

                      If Defense Programs had effectively prioritized its projects, officials
                      would have been alerted to the possible shortfall in funds to operate
                      Atlas. As it was, Defense Programs did not recognize its predicament
                      until it revised its budget structure in 1999. Even though the revised
                      budget structure better categorized Defense Programs' costs in broad
                      categories, it did not prioritize funding for individual projects.

Program Constraints   Defense Programs constructed the $49 million facility on-time and
                      within budget. However, it subsequently realized that it did not have
                      the operating funds needed for Atlas even though it was designed to
                      fulfill a vital role in the Department's Stockpile Stewardship Program.
                      If this cannot be resolved, the Department's confidence in its stockpile
                      may be adversely affected.

                      The Department began testing Atlas at Los Alamos, and subsequent to
                      the issuance of a draft of this report, Defense Programs acquired
                      funding to dismantle, move, and reassemble Atlas at the NTS.
                      However, the Department had not secured the funding needed to
                      operate Atlas after it is reassembled. If funding constraints continue,

Page 4                                                                    Details of Finding
                  the Department may not be able to reap the benefits of the technology
                  that this facility provides – validation of certain elements of nuclear
                  weapons computer codes used to certify the safety, security, and
                  reliability of the weapons stockpile. Further, without operating funds,
                  the Department may not have made prudent use of monies spent to
                  construct the facility and subsequently move it to the NTS.

RECOMMENDATIONS   We recommend that the Deputy Administrator for Defense Programs,
                  National Nuclear Security Administration:

                  1. Establish a formal prioritization process to help ensure that funds
                     are available to operate Stockpile Stewardship projects based on
                     detailed cost information;

                  2. Ensure that prior to construction, projects have operating funding
                     requirements identified and that requests for operating funds are
                     made in a timely manner; and,

                  3. Notify Congress if there is any change in plan to operate Atlas once
                     it is moved to the NTS.

MANAGEMENT        Management did not agree with the report and stated that the report
REACTION          presumed to pass judgement on the technical need of the project
                  without the benefit of unbiased expertise on the subject of weapons
                  research and design. It non-concurred with recommendation 1, but did
                  concur with recommendations 2 and 3.

                  Exception was taken to the report's criticism of the prioritizing process
                  in Defense Programs. Management stated that it had a good process,
                  but after the project was approved and life-cycle costs were determined,
                  funding was not available to operate Atlas. The storage option was
                  considered in 1999 when it became evident that funding expectations
                  were lower than previously anticipated. Management also pointed out
                  that if the project were moved, it would not be operable until 2003.

                  Exception was also taken to the statement that not operating Atlas
                  might impact the confidence level of the stockpile. Management stated
                  this would not, of itself, justify the operation of the facility. However,
                  the plan now is to test the facility in Los Alamos and then move it to the
                  NTS. Applicable appropriations law mandated the move. Thus, the
                  report was premature with respect to comments that the facility would
                  not be used. Funds have been requested for the move.




Page 5                                            Recommendations and Comments
AUDITOR COMMENTS   With respect to the technical statements in the report, the report never
                   presumed to judge the technical merit of Atlas. In fact, all references
                   regarding the need for Atlas were based on statements made by
                   Department officials or studies made on behalf of the Department.

                   We recognize that the Department is in a difficult position. It justified
                   the facility, acquired the construction funds, and built Atlas in a very
                   timely manner. The Department now faces budgetary problems for
                   which there are no easy solutions. While we acknowledge those
                   problems, the report clearly showed a weakness with Defense
                   Programs' prioritization process. That is, if Atlas was important
                   enough to build, then it should have received a high enough priority
                   ranking to allow it to be operated. However, there was no formal
                   prioritized listing of projects to be benchmarked against available
                   funding.

                   Subsequent to the issuance of the draft report, Defense Programs
                   provided documentation to support its plan to request funds for the
                   future operation of Atlas. Although this documentation showed desire
                   within Defense Programs to operate the facility, the budget plan had not
                   been finalized and approved by the Department. Unless the Department
                   assigns a high enough priority to assure it can operate any facility once
                   it is constructed, it should not proceed with construction. Likewise,
                   unless the Department can be assured that it will have funds needed to
                   operate a facility once it is moved, it should not be moved.




Page 6                                             Recommendations and Comments
Appendix 1
SCOPE         The audit was performed between May and September 2000 at Defense
              Programs, Albuquerque Operations Office (Albuquerque), and Los
              Alamos. The audit covered project activities for the period from
              August 1993 through September 2000.

METHODOLOGY   To accomplish the audit objective, we:

                   •   Reviewed applicable Public Laws, Department Orders, other
                       Departmental guidance, studies, and related correspondence;

                   •   Reviewed project justification documents and plans;

                   •   Interviewed Defense Programs, Albuquerque, and Los Alamos
                       personnel;

                   •   Interviewed participants involved in the independent
                       assessments of Atlas and Sandia National Laboratories pulsed
                       power personnel; and,

                   •   Reviewed Department and Los Alamos reports on Atlas and
                       the Stockpile Stewardship Program.

              The audit was conducted in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the objective of the audit. Accordingly,
              we assessed the significant internal controls and performance measures
              established under The Government Performance and Results Act of
              1993 related to the management of Atlas. However, neither Los
              Alamos nor Albuquerque had performance measures related
              specifically to Atlas. Because our review was limited, it would not
              necessarily have disclosed all internal control deficiencies that may
              have existed at the time of our audit. We did not rely on computer
              processed data to conduct this audit. We held an exit conference on the
              report with Defense Programs officials on January 17, 2001.




Page 7                                                   Scope and Methodology
Appendix 2

        PAST AUDITS RELATING TO DESIGN AND CONSTRUCTION OF PROJECTS



•   Followup Review of Major System Acquisitions and Major Projects, OIG Report DOE/IG-0292,
    November 1990. Departmental elements responsible for operating and managing major acquisitions
    still were not in full compliance with the documentation and reporting requirements of the
    Department's project management system.

•   Special Report on the Audit of the Management of Department of Energy Construction Projects,
    OIG Report DOE/IG-0398, November 1996. Past OIG reports showed that construction plans were
    not always updated when mission needs changed and projects were not needed or all alternatives
    were not fully evaluated prior to proceeding with construction of new facilities.




Page 8                                                        Past Audits Relating to Design and
                                                              Construction of Projects
Appendix 3
             PHOTOGRAPH OF ATLAS




Page 9                             Photograph of Atlas
                                                                      Report No.:DOE/IG-0495


                              CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the back
of this form, you may suggest improvements to enhance the effectiveness of future reports.
Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the audit would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in this report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have
any questions about your comments.

Name____________________________________Date________________________________

Telephone________________________________Organization__________________________

When you have completed this form, you may fax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

               Office of Inspector General (IG-1)
               U.S. Department of Energy
               Washington, D.C. 20585
               ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:


                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov


       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
